OFFICE OF INSPECTOR GENERAL





AUDIT OF USAID/JORDAN’S 

FISCAL REFORM PROJECT 



AUDIT REPORT NO. 6-278-09-003-P
November 30, 2008




CAIRO, EGYPT
Office of Inspector General


November 30, 2008


MEMORANDUM

TO:    	       USAID/Jordan Director, Jay Knott

FROM: 	        Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:	      Audit of USAID/Jordan’s Fiscal Reform Project
               (Report No. 6-278-09-003-P)

This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and have included your responses in appendix II.

The report contains three recommendations intended to improve the implementation of
USAID/Jordan’s fiscal reform project. Based on your comments and the documentation
provided, we consider a management decision has been made and final action has been
taken for recommendation no. 1. Management decisions for recommendations nos. 2
and 3 will be considered to have been made when the USAID/Jordan’s Contracting
Officer determines the allowability of questioned costs.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective................................................................................................................ 3 


Audit Findings ................................................................................................................. 4 


     Performance Monitoring and Evaluation Plan Needs Updating .................................. 5 


     Questioned Costs Should Be Reviewed………… ....................................................... 7 


     Management Controls Should Be Strengthened………… .......................................... 9 


Evaluation of Management Comments ....................................................................... 11 


Appendix I—Scope and Methodology......................................................................... 12 


Appendix II—Management Comments........................................................................ 14 


Appendix III—Achieved and Planned Results............................................................ 16 


Appendix IV—Summary of Contractor Questioned Costs........................................ 19 

SUMMARY OF RESULTS 

Despite a notable growth of Jordan’s gross domestic product by 7.5 percent in 2004, the
amount of tax revenues from personal incomes, sales, and corporations as a percentage
of overall revenues has not increased. To improve the efficiency and effectiveness of
Jordan’s fiscal system, on May 25, 2006, USAID/Jordan awarded BearingPoint, Inc., a
$14 million contract to provide technical assistance to the Government of Jordan in the
area of fiscal policy. The 3-year project included activities in four areas—tax policy, tax
administration, budget management, and a public awareness campaign. (See page 4)

The Regional Inspector General/Cairo performed this audit to determine whether
USAID/Jordan’s Fiscal Reform Project achieved planned results and what the impact
has been (see page 3). At the halfway point of the project, as of November 2007,
USAID/Jordan’s Fiscal Reform Project had achieved planned results in its tax policy and
budget management activities and had not achieved planned results in its tax
administration and public awareness activities. Overall, the project had achieved the
planned results for 31 of 50 performance indicators. (See page 4)

Overall, the impact of the Fiscal Reform Project fell short of expectations for some of its
goals at the halfway point of the project. On a positive note, the tax policy activities
generated a series of analyses for decision-makers within the Government of Jordan,
including a synthesis of all tax legislation and tax laws that were in use. However, the
Government of Jordan has not yet implemented a new comprehensive tax code as
recommended by the project. Budget management activities produced a results-
oriented budgeting capacity for the Government of Jordan for the first time, and all
budget activities are now tied to budget classifications. The audit identified the following
three issues requiring USAID/Jordan’s management attention. (See page 4)

First, the contractor’s performance monitoring and evaluation plan needs updating. The
Jordan’s Fiscal Reform Project contract required the contractor to update the
performance monitoring and evaluation plan each year. After the contractor prepared its
initial performance monitoring and evaluation plan in November 2006, the contractor had
not subsequently updated this plan, despite changing conditions including key
assumptions not being fulfilled, indicators not being completed, and missing baselines
and targets. In July 2008, the contractor submitted an updated performance monitoring
and evaluation plan to USAID/Jordan, which the mission had not approved at the
conclusion of the audit work. (See page 5)

Second, the contractor's invoices included questioned costs. According to the contractor,
the invoice process allowed instances of duplicate uploads of charges into its accounting
system. Consequently, in some instances, the contractor billed USAID/Jordan for duplicate
charges. As a result, the audit identified total questioned costs of $41,639. (See page 7)

Third, management controls should be strengthened to improve the accountability and
effectiveness of USAID/Jordan’s programs. In one instance, the Ministry of Finance
rejected project deliverables because the contractor did not coordinate its work with the
Ministry staff to determine specific needs or notify mission staff about communication
difficulties. (See page 9)




                                                                                          1
In its response to the draft report, USAID/Jordan has taken corrective action and
completed final actions for recommendation no. 1 and is currently assessing and
reviewing information in regard to recommendations nos. 2 and 3. (See page 11)
Management comments in their entirety are included in appendix II. (See pages 14-15)




                                                                                  2
BACKGROUND 

Over the past several years, the objective of the Government of Jordan’s National
Agenda has been to raise living standards over the medium term through accelerated,
private sector-led growth and implementation of sound economic and fiscal policies. In
addition, the Jordan National Agenda emphasized broadening the tax base to increase
revenue collection and establish a central results-oriented budget. Despite a notable
growth of the country’s gross domestic product by 7.5 percent in 2004, the amount of tax
revenues from personal incomes, sales, and corporations as a percentage of overall
revenues had not increased.

The Government of Jordan has been active recently in implementing a fiscal reform
strategy, mostly focused on improving the efficiency of the tax system. To improve the
efficiency and effectiveness of Jordan’s fiscal system, USAID/Jordan awarded
BearingPoint task order number GEG-I-04-00004-00, a $14 million contract, on May 25,
2006, to provide technical assistance to the Government of Jordan in the area of fiscal
policy.     The 3-year project included activities in four areas—tax policy, tax
administration, budget management, and a public awareness campaign. As of
November 30, 2007, USAID/Jordan had obligated $9.3 million and had disbursed $7.0
million for the Fiscal Reform Project.

At USAID/Jordan, the Office of Economic Growth is responsible for the management the
Fiscal Reform Project. The office used an indefinite quantity contract, which is an
acquisition instrument that was pre-competed and awarded by USAID/Washington. An
indefinite quantity contract is a centrally funded mechanism for worldwide use. Using an
indefinite quantity contract, USAID/Jordan awarded a task order under the indefinite
quantity contract that included technical requirements for its fiscal reform activities.


AUDIT OBJECTIVE
The audit was conducted as part of the Office of Inspector General’s audit plan for fiscal
year 2008 to answer the following question:

   •	 Has USAID/Jordan’s Fiscal Reform Project achieved planned results and what
      has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS 

At the halfway point of the project as of November 2007, USAID/Jordan’s Fiscal Reform
Project had achieved planned results in its tax policy and budget management activities
and had not achieved planned results in its tax administration and public awareness
activities that represent 50 indicators in total. In particular, the mission had not achieved
9 of its 14 tax administration indicators. (See appendix III for the status of individual
performance indicators).

Within the tax policy area, the project achieved planned results for 11 of 12 performance
indicators. For example, the project established a tax policy unit, and this unit provided
recommendations for a new Jordanian tax code to the Director General of the Income
and Sales Tax Division and the Minister of Finance within the Government of Jordan.
The project also provided training sessions to government staff on various aspects of tax
policy analyses.

In the budget management area, the project achieved planned results for 14 of 17
performance indicators. For example, budget management activities produced a results
oriented budgeting capacity within the Government of Jordan, consisting of an integrated
database of funded investment projects. The project also delivered training programs to
about 450 Government of Jordan staff, covering areas such as budget preparation and
budget classification. This complimented work to complete chart of accounts structures
that were consistent with international best practices. In addition, the project was on
track to implement a government financial management information system.

However, the project did not achieve planned results for 9 of 14 tax administration
performance indicators. For example, six of the nine indicators were intended to
automate portions of the tax collection process, build internal audit capability, and
improve customer service. Although the activities include a nationwide customer
satisfaction survey to be conducted for three of nine indicators, the contractor and
mission officials agreed not to conduct the survey.

Lastly, the project did not achieve planned results for 6 of 7 public awareness
performance indicators. The project’s performance indicators were designed to primarily
measure public contact with the Government’s Income and Sales Tax Division, including
the number of businesses and other institutions requesting assistance and training; the
number of telephone calls received by the Division, and the number of press releases
issued to promote public awareness on tax-related issues. For example, the tax
administration area of the project included some public awareness activities such as
promotions for the 2007 tax filing season and advertising materials that encouraged the
payment of income taxes.          Although the project developed a strategy for a
comprehensive public awareness campaign, the planned implementation of these
activities was delayed because the Jordanian Parliament has not passed new tax
legislation.

Overall, the impact of the Fiscal Reform Project fell short of expectations at the half-way
point of the project; 31 of the planned results or 62 percent have been achieved. On a
positive note, the tax policy activities generated a series of analyses for decision-makers
within the Government of Jordan, including a synthesis of all tax legislation and tax laws


                                                                                           4
that were in use. Although the project achieved some success, the Government of
Jordan has not yet implemented a new comprehensive tax code as recommended by
the project. Budget management activities produced a results oriented budgeting
capacity for the Government of Jordan for the first time. In addition, all budget activities
are now tied to budget classifications. As discussed in the following report sections, the
audit identified the following issues requiring USAID/Jordan management attention.

       •   Performance monitoring and evaluation plan needs updating.
       •   Questioned costs should be reviewed.
       •   Management controls should be strengthened.

Performance Monitoring and
Evaluation Plan Needs Updating
Summary: The Jordan Fiscal Reform Project contract required that the performance
monitoring and evaluation plan be updated each year. Similarly, Agency guidance
requires a mission to monitor implementer output quality and timeliness. Although the
contractor prepared its initial performance monitoring and evaluation plan in November
2006, the contractor has not subsequently updated this plan despite changing conditions
including key assumptions not being fulfilled, indicators not being completed, and
missing baselines and targets. According to the contractor, the delay was due to the late
arrival of the contractor’s performance monitoring and evaluation consultant in Jordan.
Consequently, the contractor and USAID/Jordan did not adjust the project’s performance
measures to address several challenges to fiscal reform in Jordan.

USAID Automated Directives System (ADS) 202.3.6, states that a mission’s cognizant
technical officers and the strategic objective team are responsible for the major task of
monitoring the quality and timeliness of outputs produced by implementing partners.
The guidance also explains that delays in completing outputs, or problems in output
quality, provide an early warning that results may not be achieved as planned and that
early action in response to such problems is essential in managing for results.
Moreover, ADS 202.3.6.3 states that operating units must make adjustments when
conditions warrant. In addition to these requirements, the contract required BearingPoint
to develop a comprehensive monitoring and evaluation plan to measure program
progress and impact.

BearingPoint prepared its initial performance monitoring and evaluation plan in
November 2006. However, the contractor has not subsequently updated this plan
despite changing conditions, including key assumptions not being fulfilled, indicators not
being completed, and missing baselines and targets. In its performance monitoring and
evaluation plan, the contractor identified a number of economic, political, and
environmental handicaps to performance as critical assumptions to meeting targets. For
example, the postponement of implementation of the new unified tax code and its
passage into a law by the Jordanian Government prevented full achievement of a
planned result for a public awareness campaign. Consequently, the Ministry of Finance
has not been able to implement a public awareness campaign in this regard. Moreover,
since the mission did not update its performance monitoring and evaluation plan, the
indicators by which USAID/Jordan used to measure its performance management would
erroneously indicate that it failed to achieve targets previously established in November
2006.


                                                                                          5
Automated Directives System 203.3.4.5 states that indicators “should include
performance baselines and set performance targets that can optimistically but
realistically be achieved within the stated timeframe and with the available resources.”
For example, of the seven performance indicators for public awareness, the contractor
and USAID/Jordan had not established baselines for 4 and had not determined targets
for 3 performance indicators. Specifically, the performance indicator—“Number of
businesses, associations, and institutions which requested assistance and training by
the Income and Sales Tax Division”—did not have either a baseline or a target to
measure results. Another indicator—“Number of collateral produced to promote public
awareness on tax-related issues,”—also did not have either a baseline or a target. After
baselines are determined, targets are used to represent the expected level of
achievement beyond the baselines within a given period of time. In tandem, baselines
and targets should monitor the progress of the project. Although USAID/Jordan had
approved the contractor’s initial performance monitoring and evaluation plan in
November 2006, this plan had never been updated or approved to establish key
performance measures that were initially missing.

BearingPoint stated in its June 2007 annual report that the delay in updating the
performance monitoring and evaluation plan was attributable to USAID/Jordan’s
development of a new set of indicators for the mission’s operational plan. The August
2007 annual work plan for the second year of operation did not contain an updated
performance monitoring and evaluation plan although it was required by the contract.
That annual work plan indicated that the update of the performance monitoring plan was
deferred until the arrival of a performance monitoring and evaluation specialist, which
was scheduled for November 2007. As of January 2008, the contractor had still not
updated the performance monitoring and evaluation plan. In February 2008, the
contractor proposed a planning session during the spring of 2008 for the update. In July
2008, the contractor submitted a performance monitoring and evaluation plan to
USAID/Jordan, which the mission had not yet approved at the conclusion of the audit
work.

The updated performance monitoring and evaluation plan for the second year of the
project was due in June 2007. However, the contractor had not updated the plan by
November 30, 2007. Subsequently, over than a year from the due date, and specifically
in July 2008, the contractor issued an updated plan, which the Mission had not approved
at the conclusion of the audit work. As a consequence of the delay in updating the
performance monitoring plan, the contractor will need to revise indicators and establish
missing baselines and targets for the final year of the project. Because the late
measuring of progress puts the results of the Jordan Fiscal Reform Project at risk of not
being completed as planned and can cause the inefficient use of contract resources, this
audit makes the following recommendation to USAID/Jordan.

       Recommendation No. 1: We recommend that USAID/Jordan direct the
       contractor to update the performance monitoring and evaluation plan on
       time for the final year of the project in accordance with the terms of the
       contract.




                                                                                       6
Questioned Costs Should Be Reviewed
Summary:       Federal Acquisition Regulation 31.201-2 sets the standards for the
allowability of costs for contracts with commercial organizations. The contractor’s
invoices contained erroneous, unsupported, incomplete, and missing financial data. The
audit identified questioned costs of $41,639; of that amount, the contractor has agreed to
refund $25,132 to USAID/Jordan. According to the contractor, the BearingPoint invoice
process allowed instances of duplicate uploads of charges into their accounting system.
Subsequently, during USAID/Jordan’s review of the contractor’s invoices, the mission
staff found a few instances where the contractor revised some of its invoices, but the
mission did not identify some duplicate charges. As a result, questioned costs
unnecessarily have decreased available resources for other program activities.

Federal Acquisition Regulation 31.201-2 sets the standards for the allowability of costs
for contracts with commercial organizations. According to the standards, a cost is
allowable only when it complies with all requirements, including reasonableness,
allocability, and the terms of the contract. Furthermore, section 31.201-2(d) of the
Federal Acquisition Regulation states that “a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred, are allocable to the
contract, and comply with applicable cost principles in this subpart and agency
supplements. The contracting officer may disallow all or part of a claimed cost that is
inadequately supported.”

Although the contractor’s invoices for the period from May 25, 2006, to November 30,
2007, contained erroneous, unsupported, incomplete, and missing financial data,
USAID/Jordan paid the contractor for the amounts billed. According to the cognizant
technical officer, as of November 2007, the contractor had billed USAID/Jordan using 18
invoices for approximately $7 million for project expenses. The cognizant technical
officer reviewed the invoices to determine the propriety of the costs billed to
USAID/Jordan. To document the questioned costs, the cognizant technical officer
contacted the contractor, either telephonically or in writing, to request clarification or
additional supporting documentation about the charges present for mission payment. In
most instances, mission staff found the contractor charges to be valid. However, in a
few instances, the contractor agreed to revise some of its invoices because of erroneous
charges identified by the cognizant technical officer.

In addition to the cognizant technical officer’s review of the contractor’s invoices, the
audit identified additional errors on the invoices that provided inadequate explanations of
costs claimed and missing dates for lodging and per diem. Of approximately $618,304
in charges, the audit team identified questioned costs of $41,639, representing
approximately 7 percent of a subset of the total of invoices reviewed. As a result of this
audit, the contractor has agreed to refund to USAID/Jordan the amount of $25,132 of the
$41,639 in identified questioned costs. (See appendix IV for details of the questioned
costs.) The $41,639 in questioned costs consisted of the following.

        •   Duplicate and/or overcharges of travel and transportation costs of $19,110.
        •   Duplicate and/or overcharges of allowances of $10,675.
        •   Ineligible labor charges for consultants of $11,855.




                                                                                          7
According to the contractor, BearingPoint’s invoice process allowed instances of
duplicate uploads of charges into the accounting system. In some instances, the
contractor submitted invoices that contained duplicate project charges to USAID/Jordan.
The cognizant technical officer received and reviewed the contractor’s invoices monthly
as a part of the mission’s management review process. After this review, the cognizant
technical officer forwarded the approved invoices to the mission’s financial management
office for a secondary management review and validation before executing payments.

During the audit, the USAID/Jordan cognizant technical officer expressed concerns that
the contractor invoices were ambiguous and difficult to understand, but the mission’s
contracting office staff affirmed that the contractor prepared the invoices in accordance
with the reporting requirements of the indefinite quantity contract that was centrally
awarded by USAID/Washington.             According to the mission’s contracting office,
USAID/Jordan can not change the clauses that were place in the indefinite quantity
contract over the billing process; therefore, the mission was not allowed to require the
contractor to modify its billing system. Consequently, the contractor’s billing system
would be consistent at each USAID mission where it conducts work. Nevertheless, as a
result of this audit, a BearingPoint representative stated that the contractor instituted
enhanced processes and quality control improvements to avoid duplicate uploads as of
January 2008. The contractor reports that these corrective measures include (1) more
timely uploads of charges to avoid duplicate entries caused by initiating a corrective (and
duplicate) upload when the original billing is not prepared in a timely manner,
(2) validation of costs against submitted transactions, and (3) training for project staff to
ensure that all uploads and corrections are reviewed and validated. As a result of these
corrective measures, the mission cognizant technical officer has noticed significant
improvement in the invoices reviewed.

Management control activities associated with USAID programs and operations must be
effective and efficient to achieve objectives. These control activities include reviews by
management of activities such as approvals, authorizations, verifications, and
reconciliations. Each USAID office has a critical role to ensure, among other things, that
transactions are allowable, reasonable, and properly supported. Since questioned costs
unnecessarily decreased available resources for other program activities, this audit
makes the following recommendations to USAID/Jordan:

       Recommendation No. 2: We recommend that the Contracting Officer,
       USAID/Jordan, determine the allowability of the ineligible questioned
       costs of $28,650 of duplicate and/or overcharges for travel, allowances,
       and labor claimed by the contractor for the period from May 25, 2006, to
       November 30, 2007, and recover any amounts determined to be
       unallowable.

       Recommendation No. 3: We recommend that the Contracting Officer,
       USAID/Jordan, determine the allowability of the unsupported questioned
       costs of $12,989 of duplicate and/or overcharges for travel and
       allowances claimed by the contractor for the period from May 25, 2006, to
       November 30, 2007, and recover any amounts determined to be
       unallowable.




                                                                                           8
Management Controls
Should Be Strengthened
Summary: Automated Directives System 596, “Management’s Responsibility for Internal
Control,” provides policy directives and required procedures to improve accountability
and effectiveness of USAID programs. At USAID/Jordan, in one specific instance, fiscal
reform activities included specific project deliverables that were rejected by Jordan’s
Ministry of Finance. The Ministry rejected the project deliverables because the
contractor did not coordinate its work with the Ministry staff to determine specific needs
or notify mission staff about communication difficulties.            As USAID’s technical
representative, the cognizant technical officer shares responsibility in effective project
communication. Because of the lack of open and constant communication among
stakeholders, USAID/Jordan did not maximize its use of project funds to ensure that its
fiscal reform activities were effective and efficient to achieve desired results.

Automated Directives System 596.3.1c requires USAID managers to, among other
things, develop internal controls activities that would reasonably ensure that activities
are effective and efficient. Such activities include establishment, and reviews of
performance measures and indicators, and the proper execution of events.

In July 2004, a joint World Bank/International Monetary Fund mission identified the
functions of commitment control and cash management as being major deficiencies
which needed to be addressed on a priority basis. In addition, the World Bank
emphasized that management and control of expenditure commitments was essential for
efficient and effective resource management; for monitoring of budgetary performance of
ministries and departments; and for aggregate cash management by the Ministry of
Finance.

USAID/Jordan incorporated the commitment control and cash management functions
into the BearingPoint contract’s statement of work in May 2006. In part, the contractor
was to (1) perform assessments of and make recommendations to Jordan’s Ministry of
Finance’s regarding its commitment control and cash management functions, and (2)
develop a public awareness campaign that would help to inform the public about
impending changes in the tax system to increase compliance rates.

During 2006, after the Ministry requested the assessments of its cash management and
commitment control activities, BearingPoint hired a team of two advisors for about three
weeks to perform the required assessments. Although the contractor performed
assessments and submitted recommendations to the Ministry of Finance, the Ministry
rejected the work products because the resulting work did not expand on previously
conducted analyses on the cash management and commitment control functions.
Although the Ministry rejected the work products, USAID/Jordan paid the contractor
$57,538 for these efforts because BearingPoint completed its assigned work and
produced an assessment with recommendations, as required.

According to the cognizant technical officer, before the contractor began its work, the
Ministry of Finance had conducted and nearly completed assessments of these two
functions, but needed technical assistance from BearingPoint. Despite BearingPoint’s
unsuccessful attempts to contact Ministry officials for guidance and input, the contractor
did not contact the mission staff to report any difficulties with communicating with


                                                                                        9
Ministry officials. Ultimately, the contractor performed separate assessments without
consulting with the Ministry staff—which were ultimately rejected by Ministry of Finance
officials.

As a result of lessons learned, USAID/Jordan began using a formal forum to increase
communication and cooperation.            USAID/Jordan’s cognizant technical officer
acknowledged that Mission staff typically do not “micro-manage” or manage the
contractor’s daily activities, but often work closely with the contractor and Ministry
officials. Moreover, the BearingPoint Chief of Party also acknowledged that its team had
not provided work products desired by the Ministry due to the lack of collaboration the
contractor and the Ministry. In this instance, a communication breakdown occurred that
negatively impacted the project. To ensure open and on-going communication,
USAID/Jordan and the Ministry established a steering committee to meet monthly to
discuss project activities.     The steering committee includes officials from the
Government of Jordan, BearingPoint, and USAID/Jordan.

Since USAID managers are the chief stewards of public resources, officials should
reasonably ensure that project objectives are being achieved. As a consequence,
USAID/Jordan resources should be expended on project work products that are of value
to the mission and its stakeholders, as well as usable. Since USAID/Jordan has taken
corrective action to establish a steering committee to ensure project management
oversight of its ongoing activities, this audit is not making a recommendation at this time.




                                                                                         10
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Jordan has taken corrective action and
completed final actions for recommendation no. 1 and is currently assessing and
reviewing information to make management decisions to address recommendations nos.
2 and 3.

In response to recommendation no. 1, USAID/Jordan approved a monitoring and
evaluation plan for its fiscal reform project activities in July 2008. Since the revised
performance monitoring and evaluation plan covers the project until its completion in
May 2009, the Mission’s corrective action addresses the recommendation. Based on
action taken by the Mission, the audit team considers that both a management decision
and final action have been taken for the recommendation.

With regard to recommendations no. 2 and 3, the Automated Directives System
595.3.1.2a requires the Contract/Grant Officer to make a determination of allowability of
questioned costs and to establish a target date for collection of the disallowed amounts.
Accordingly, after the contracting officer has determined the allowability of the
questioned costs, the mission can request our acknowledgement of management
decisions.

Mission comments in their entirety are included in appendix II.




                                                                                      11
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General’s Office in Cairo, Egypt, conducted this audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The purpose of the audit was to
determine whether the USAID/Jordan Fiscal Reform Project achieved planned results and
what has been the impact.

On May 25, 2006, USAID/Jordan awarded BearingPoint, Inc., contract number
GEG-I-04-0004-00, a $14 million time and materials, level of effort contract, to provide
technical assistance to the Government of Jordan to effect fiscal reform in the country’s
tax policy, budget management, and tax administration. The main recipient of the
contractor’s technical assistance was the Jordanian Ministry of Finance. The contract
covered a 3-year period ending in May 2009. As of November 30, 2007, the
USAID/Jordan had obligated $9.3 million and had disbursed $7.0 million for the Fiscal
Reform Project.

We conducted our audit work from November 12, 2007, to June 24, 2008, at
USAID/Jordan and BearingPoint offices in Amman, Jordan. We interviewed key
program staff at the USAID/Jordan mission and BearingPoint as well as officials from the
Jordanian Ministry of Finance in Amman. We also reviewed relevant performance and
financial documents.

In conducting this audit, we examined the activities listed in the contractor’s annual work
plan and all 50 corresponding indicators listed in the contractor’s performance
monitoring and evaluation plan. We obtained information as to whether the program
achieved its planned results from the contractor’s headquarters in the Washington, DC,
area as well as USAID/Jordan’s technical office. To assess the project’s impact, we
interviewed Jordanian government officials, including the Minister of Finance and the
Director General of Jordan’s Budget Department.

In addition, we examined significant mission management controls relating to the audit
objective, including the following:

   •	 Monitoring of performance results by the contractor, including the development of
      work plans, the reporting of program and financial status in quarterly progress
      reports, and site visits.
   •	 Performing an annual self assessment of management controls, as required
      under the Federal Managers’ Financial Integrity Act.
   •	 Reviewing of the contractor’s monthly invoices for costs incurred.
   •	 Monitoring of the quality of the contractor’s work products and levels of effort,
      including advisors’ arrival and departure dates and their progress reports.

There were no prior audits affecting the areas reviewed.


                                                                                        12
                                                                             APPENDIX I 




Methodology
To answer the audit objective, we reviewed activities in the contractor’s work plan which
described the specific activities that both the contractor and the mission agreed to do
under the contract, including timelines showing when individual activities were expected
to be completed. We obtained updates of project results from the contractor’s
headquarters office. We determined whether or not the activities for each of the 50
performance indicators in the contractor’s work plan achieved or did not achieve their
planned results based on interviews with the Mission’s technical staff and documentation
provided, including quarterly progress reports.

Specifically, this determination was based on a comparison of actual results with
planned results, considering the benefits to the Ministry of Finance, the accomplished
compared to that planned level of effort, and input furnished by the USAID/Jordan’s
cognizant technical officer and the Ministry of Finance. To determine the impact of the
project, we extensively interviewed officials from USAID/Jordan Mission, and the
contractor, as well as the Jordanian Ministry of Finance and Budget Department.

With regard to questioned costs, we reviewed the contract, the memorandum of
negotiation, and the monthly invoices from June 2006 to November 2007. We tested
incurred costs of $618,304 paid by the contractor for labor, travel, and allowances for
selected short-term advisors. Our selection of costs to test was based on an
assessment of risk, due to limited audit review time. We questioned $41,639,
approximately 7 percent of the total.

For evaluating project results, the materiality threshold was established at 10 percent. In
other words, if 90 percent of more of the activities reviewed were determined to have
achieved the planned results as of November 30, 2007, we would have determined that
USAID/Jordan’s Fiscal Reform Project achieved planned results as stated in the audit
objective.




                                                                                        13
                                                                              APPENDIX II 




MANAGEMENT COMMENTS 



DATE:          November 20, 2008

TO:            Lloyd J. Miller, Regional Inspector General/Cairo

FROM:          Jay Knott, Director USAID/Jordan /s/

SUBJECT:       Audit of USAID/Jordan’s Fiscal Reform Project
               (Report No. 6-278-08-00X-P)

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We are providing confirmation of the actions that have been taken or are planned
to be taken to address the three audit recommendations.

The auditors arrived at their results because they were testing against the outdated project
performance monitoring and evaluation indicators which the project had not updated to
measure what was actually achieved on the ground. For many of these indicators,
baselines and targets were not established. As written, the finding gives the erroneous
impression that results in some activity areas were not satisfactory. In reality, the problem
was with the performance indicators, not with the activities. The Project goals and
expected results set out in the project’s workplans in the different areas have been
successfully attained and are now properly measured in the updated PME.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Jordan direct the contractor
to update the performance monitoring and evaluation plan on time for the final year
of the project in accordance with the terms of the contract.

Action Taken:

In March 2008, a draft performance monitoring and evaluation plan (PME) was prepared
by the Contractor. This draft Plan was approved by USAID and provided to RIG/Cairo
in July of 2008. The updated PME is the final PME as it covers the project until its
completion in May 2009.

Based on the actions taken by the Mission, we request the recommendation be closed
upon issuance of the report.


                                                                                          14
                                                                           APPENDIX II 




Recommendation No. 2: We recommend that the contracting officer,
USAID/Jordan, determine the allowability of the ineligible questioned costs of
$28,650 of duplicate and/or overcharges for travel, allowances, and labor claimed by
the contractor for the period from May 25, 2006, to November 30, 2007, and recover
any amounts determined to be unallowable.

Planned Action:

Of the total amount of $41,639 identified by the audit as questioned costs (found in both
recommendations nos. 2 and 3), the contractor has agreed with and re-imbursed a total of
$23,323 as of August, 2008. For the remaining balance of $18,316, which the contractor
does not agree, the Contracting Officer will determine the allowability of the questioned
cost by December 15, 2008.


Recommendation No. 3:         We recommend that the Contracting Officer,
USAID/Jordan, determine the allowability of the unsupported questioned costs of
$12,989 of duplicate and/or overcharges for travel and allowances claimed by the
contractor for the period from May 25, 2006, to November 30, 2007, and recover
any amounts determined to be unallowable.

Planned Action:

Of the total amount of $41,639 identified by the audit as questioned costs (found in both
recommendations nos. 2 and 3), the contractor has agreed with and re-imbursed a total of
$23,323 as of August, 2008. For the remaining balance of $18,316, which the contractor
does not agree, the Contracting Officer will determine the allowability of the questioned
cost by December 15, 2008.




                                                                                      15
                                                                              APPENDIX III


            Achieved and Planned Results of USAID/Jordan’s
              Fiscal Reform Project as of November 2007

                                                                                Not
                                                                          1
                  Performance Indicator                        Achieved       Achieved
         Tax Policy
         Maximum spread in statutory rates applicable to
         Corporate Income Tax taxpayers as defined by
    1    economic sector                                                          X
         Shares of direct vs. indirect tax revenues in total
    2    tax revenue                                              X
         Ratio of PIT2 revenues to Gross Domestic
         Product (GDP)3 after normalization for any
    3    changes in rates                                         X
         Ratio of CIT4 to GDP after normalization for any
    4    changes in rates                                         X
         Ratio of Sales Tax to GDP after normalization
    5    for any changes in rates                                 X
         Unified law containing all provisions affecting tax
    6    liability presented – yes or no                          X
         Recommendations presented on the
         harmonization of the tax administration
    7    procedures code – yes or no                              X
         Recommendations presented on unified tax
    8    administration procedures code – yes or no               X
         Milestone indicator for establishing Tax Policy
    9    Unit                                                     X
    10   Score from training application and value matrix         X
         Number of reports developed by the Tax Policy
         Unit and submitted to either the Minister or the
    11   public                                                   X
         Number of macro and micro simulation models,
         statistical, and forecasting tools utilized by Tax
    12   Policy Unit                                              X
         Tax Administration:
         Number of steps necessary to process taxpayer
    13   payment                                                  X
         Number of days necessary to process taxpayer
    14   payment                                                  X


1
  The audit team concluded that an activity achieved the planned results if results exceeded
expectations; met expectations, or were on track to achieve the planned results.
2
  Private Income Tax
3
  Gross Domestic Products
4
  Corporate Income Tax


                                                                                         16
                                                                             APPENDIX III 



                                                                               Not
                                                                         1
                   Performance Indicator                      Achieved       Achieved
          Number of steps necessary to process enforced
    15    collection case to resolution                                          X
          Number of days necessary to process enforced
    16    collection case to resolution                                          X
          Number of manual steps necessary to assign a
          case to audit and schedule an audit
    17    appointment                                            X
          Scorecard on automation of post-audit reporting
    18    process                                                X
          Scorecard on effectiveness of Internal Audit
    19    function                                               X
          Level of public perception of integrity of Income
    20    and Sales Tax Department (ISTD)                                        X
    21    Number of program audits performed                                     X
          Number of program/process
    22    adjustments/findings proposed                                          X
          Level of management awareness on internal
    23    audit function                                                         X
          Level of customer satisfaction with interactions
    24    with ISTD                                                              X
          Number of procedures for a customer to interact
    25    with Taxpayer Service Department                                       X
    26    Level of taxpayers’ satisfaction                                       X
          Budget Management
          Degree of compliance of the new budget
          classification structure and chart of accounts
    27    with GFS20015 standards                                X
    28    Number of extra-budgetary funds                                        X
          Reduced Number of Late Payments to
    29    Contractors Due to Cash Shortages                                      X
          Percentage of a ministry expenditure expressed
          in programmatic terms (as opposed to line-item
    30    terms) in the pilot ministries                         X
          Percentage of treasury/budget-funded
    31    investment projects included in the database           X
          Percentage of the new projects in the database
    32    subjected to cost-benefit analysis                     X
          Number of people trained who pass post-
    33    training evaluation                                                    X
          Level of satisfaction of the end users with user-
    34    friendliness of the database                           X

5
    Government Financial Statistical Manual 2001


                                                                                       17
                                                                       APPENDIX III 



                                                                         Not
                                                                   1
             Performance Indicator                      Achieved       Achieved
     Percentage of new projects presented for
     budget decision-making that include cost-benefit
35   analysis or other project evaluation techniques       X
     Degree to which National Agenda priorities are
     reflected in the budget (percentage of projects
     presented for budget decision- making that
     includes specific reference for the National
36   Agenda)                                               X
     Budget is based on Government Financial
     Management Information System (GFMIS)-
37   generated budget data – yes or no                     X
     Capital budget database provides updated and
38   accurate information – yes or no                      X
     Budget decisions are presented in
39   programmatic terms – yes or no                        X
40   Milestone scale for GFMIS implementation              X
41   Milestone scale for amendment of budget law           X
     Scorecard assessing the new law against the
42   requirements                                          X
     Compatibility and/or linkages with the other
     three laws that govern the financial
     management of the government will be
43   assessed                                              X
     Public Awareness
     Number of briefings between the Minister of
44   Finance and the members of the Parliament                             X
     Scores on Press Releases issued by the
     counterparts which reflect the
     process/information flow, weighted by Clipping
45   Quality Reporting scheme                              X
     Number of businesses, associations, and
     institutions that requested assistance and
46   training by ISTD                                                      X
     Number of calls received by ISTD Call Centers
47   and visits to Customer Care Centers                                   X
     Number of collateral pieces produced to
     promote public awareness on of tax-related
48   issues                                                                X
     Number of channels used to promote public
49   awareness of tax compliance                                           X
     Level of public awareness of benefits of tax
50   compliance                                                            X

                          Total                            31              19




                                                                                 18
                                                                                                                 APPENDIX IV


                         Summary of Contractor Questioned Costs
                  For the Period From May 25, 2006, to November 30, 2007
#       Cost Type      Invoice Date              Amount                        Description            Total
                                      Ineligible     Unsupported
     Travel and
     Transportation
1                         Jul-06        $7.35                      Unsupported Lodging Charges

2                        Nov-06                      $1,218.00     Unsupported Per Diem and Meals

3                        Jan-07       $1,727.46                    Ineligible Airline Fare

4                        Jan-07       $5,378.84                    Ineligible Airline Fare

5                        Mar-07                       $194.47      Unsupported Lodging Charge

6                        Jun-07       $1,941.90                    Ineligible Lodging Charges

7                        Jun-07       $2,038.41                    Ineligible Airline Fare

8                        Sep-07       $2,016.00                    Ineligible Airline Fare

9                        Sep-07       $2,195.39                    Ineligible Airline Fare

10                       Nov-07                      $2,391.72     Unsupported Lodging Charges

     Subtotal                         $15,305.35     $3,804.19                                      $19,109.54

     Allowances
11
                         Sep-06        $637.20                     Danger Pay Overcharge
12
                         Oct-06        $175.38                     Danger Pay Overcharge
13
                         Oct-06        $576.92                     Danger Pay Overcharge
14
                         Oct-06        $437.00                     Danger Pay Overcharge
15
                         Oct-06        $230.77                     Danger Pay Overcharge

                                                                                                                          19
                                                                                                   APPENDIX IV




                                                                                                                 

                   Summary of Contractor Questioned Costs
            For the Period From May 25, 2006, to November 30, 2007
#    Cost Type   Invoice Date              Amount                        Description       Total
                                Ineligible     Unsupported
16
                   Oct-06       $618.75                      Danger Pay Overcharge
17
                   Nov-06       $754.61                      Duplicate Danger Pay
18
                   Nov-06       $251.54                      Duplicate Post Differential
19
                   Nov-06       $140.83                      Duplicate Post Allowance
20
                   Dec-06       $140.83                      Duplicate Post Allowance
21
                   Jan-07       $157.92                      Duplicate Post Allowance
22
                   Jan-06       $140.83                      Duplicate Post Allowance
23
                   Jan-07       $140.83                      Duplicate Post Allowance
24
                   Jan-07       $140.83                      Duplicate Post Allowance
25
                   Jan-07       $441.00                      Danger Pay Overcharge
26
                   Jan-07       $888.41                      Duplicate Danger Pay
27
                   Jan-07       $157.92                      Duplicate Post Differential
28
                   Jan-07       $888.41                      Duplicate Danger Pay
29
                   Jan-07       $157.92                      Duplicate Post Differential
30
                   Jan-07       $157.92                      Duplicate Post Allowance
31
                   Jan-07       $157.92                      Duplicate Post Allowance
32
                   Jan-07       $157.92                      Duplicate Post Allowance
33
                   Jan-07       $151.25                      Duplicate Post Allowance

                                                                                                            20
                                                                                                               APPENDIX IV




                                                                                                                             

                       Summary of Contractor Questioned Costs
                For the Period From May 25, 2006, to November 30, 2007
#       Cost Type       Invoice Date              Amount                        Description         Total
                                       Ineligible     Unsupported
34
                          Jan-07        $151.25                     Duplicate Post Allowance
35
                          Mar-07        $140.83                     Duplicate Post Allowance
36
                          Mar-07        $796.14                     Duplicate Danger Pay
37
                          Mar-07        $265.38                     Duplicate Post Differential
38
                          Apr-07       $1,147.45                    Duplicate Lodging Charge
39
                          Apr-07        $89.90                      Ineligible Shipping Charges
40
                           Jul-07       $100.92                     Duplicate Post Allowance
41
                          Aug-07        $50.46                      Post Allowance Overcharge
42
                          Sep-07        $85.57                      Danger Pay Overcharge
43
                          Sep-07        $86.19                      Duplicate Post Allowance
44
                          Nov-07        $57.67                      Duplicate Post Allowance

     Subtotal                          $10,674.67                                                 $10,674.67

     Labor
45                                                                  Ineligible Labor Charge
                          Jun-07                      $9,184.80
46                                                                  Ineligible Labor Charge
                          Jun-07       $2,670.00

     Subtotal                          $2,670.00      $9,184.80                                   $11,854.80
     Total Questioned
                                       $28,650.02     $12,988.99                                  $41,639.01
     Amount



                                                                                                                        21
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
